March 1, 2021
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Americans for Prosperity Foundation v. Becerra &
Thomas More Law Center v. Becerra
Nos. 19-251, 19-255
RULE 33.1(h) CERTIFICATE OF COMPLIANCE

Dear Mr. Harris:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the New
Civil Liberties Alliance as Amicus Curiae in Support of the Petitioners in the aboveentitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6,086 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
Executed on March 1, 2021.

Aditya Dynar
Counsel for Petitioners

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

